j

filounty of ~an JE}i£go
THOMAS E. MONTGOMERY
COUNTY COUNSEL

OFFICE OF COUNTY COUNSEL

1600 PACIFIC HIGHWAY, ROOM 355, SAN DIEGO, CA 92101
(619) 531-4860 Fax (619) 531-6005

JEFFREY P. MICHALOWSKI

SENIOR DEPUTY
Direct Dial: (619) 531-4886
Email: Jeffrey.michalowski@sdcounty.ca.gov

December 30, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

South Bay United Pentecostal Church, et al., v. Newsom, et al. No. 20-746

Dear Mr. Harris,
The San Diego County Respondents—County Public Health Officer, Dr. Wilma J.
Wooten; County Sheriff, William D. Gore; and County Emergency Services Director,
Helen Robbins-Meyer, all sued in their official capacities (the “County Respondents”)—
agree with and join the State Respondents’ letter of December 24, 2020. For the reasons
stated therein, and because San Diego County’s public health order merely incorporates
the state’s guidance, without separately addressing religious services or gatherings, the
County Respondents will not be filing a brief in opposition unless requested by the Court.
Sincerely,
THOMAS E. MONTGOMERY, County Counsel
By: s/JEFFREY P. MICHALOWSKI, Senior Deputy

